i

cJ!.

No .

Supreme Court, U.S.
FILED

MAY 1 7 2021
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

QUINN PALACIOS CRUZ, OR.,
Petitioner,
vs .
BOBBY LUMPKIN, DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL OUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION ,
Respondent .

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Quinn Palacios Cruz, Or.
TDCO #1 4761 78
Telford Unit
3899 State Huy. 9B
Neu Boston, Texas 75570
Petitioner pro se

K

QUESTIONS PRESENTED
INTRODUCTION
Petitioner Quinn Cruz was tried and convicted of capital
murder in September 2007. He was automatically sentenced to life
without parole. On direct appeal, the capital murder conviction
was reversed, the judgment was reformed to murder, and the case
remanded to trial for punsihment only. On remand, Petitioner was
sentenced to life in prison and fined $10,000 in October 2013.
Petitioner alleged in his state and federal habeas
corpus applications that he received the ineffective assistance
of counsel at the gui1t-innocence trial and later at the
punishment trial. Moreover, Petitioner alleged that his trial
attorneys at the punishment stage had labored under a conflict
of interest.
In addition, Petitioner asserts that the U.S. district
court and Circuit Court had erred, inter alia , by not
addressing and correctly applying the correct methodology that
was adopted by this Court.
I.
Whether the Cuy1er test for ineffective assistance of counsel
due to conflict of interest applies to individual cases of
representation and not only to multiple representation cases?
II .
Whether the U.S. district courts and circuit courts are
obligated to apply the correct methdology of review adopted by
this Court?

-4 i-

i

INTERESTED PARTIES
There are no parties to the proceeding other than those
named in the caption of the case.
RELATED CASES
• State v. Cruz , No. 20060D00581 , 205th District Court
of El Paso County. Judgment entered Sept. 26, 2007.
• Cruz v . State , No. 0B-0B-0021 3-CR, Eighth Court of
Appeals. Judgment entered July 2B, 2010.
* Cruz v. State, No. PD-16B7-10, Court of Criminal
Appeals of Texas. Judgment entered March 23, 2011.
• Cruz v . State, No. 0B-14-0005B-CR, Eighth Court of
Appeals. Judgment entered June B, 2016.
• Cruz v. State, No. PD-109B-16, Court of Criminal
Appeals of Texas. Judgment entered March 1 , 2017.
• Ex parte Cruz, No. LJR-69, 7B6-02, Court of Criminal
Appeals of Texas. Judgment entered May 23, 201B.
• Cruz v . Davis , No. EP-1 B - C \l - 24 3 , U.S. District
Court for the Uestern District of Texas. Judgment
entered Sept. 10, 2019.
• Cruz v . Lumpkin , No. 19-50972, United States Court
of Appeals for the Fifth Circuit. Judgment entered
Dec . 1B, 2020.

-ii-

i.

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

INTERESTED PARTIES AND RELATED CASES

ii

TABLE OF CONTANTS

iii

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

OURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

7

I. TRIAL COUNSEL AT THE PUNISHMENT STAGE OF TRIAL HAD
LABORED UNDE A CONFLICT OF INTEREST THAT RESULTED IN
INEFFECTIVE ASSISTANCE OF COUNSEL, VIOLATING CRUZ'S
CONSTITUTIONAL RIGHT TO THE EFFECTIVE ASSISTANCE OF
COUNSEL UNDER THE SIXTH AMENDMENT TO THE UNITED
STATES CONSTITUTION..............................................................................

7

A. Trial counsel's actions at the guilt-innocence stage of
trial was not harmless and carried over to Cruz's
punishment trial several years later...........................................

7

B. Trial counsel's admittance of the omitted evidence at the
punishment stage of trial.........................................................................

9

C. Supporting Arguments

11

II. THE U.S. DISTRICT COURT AND THE CIRCUIT COURT OF
APPEALS ERRED, INTER ALIA, WHEN THE COURTS DID NOT
APPLY THE "LOOK THROUGH" METHODOLOGY ADOPTED BY THIS
COURT............................................................................................................

1 2

CONCLUSION

14

VERIFICATION

15

APPENDIX :
United States Court of Appeals for the Fifth Circuot Order... 1
United States District Court Decision
-iii-

3

Eighth Court of Appeals Decision

29

Eighth Court of Appeals Decision

50

Motion to Withdraw

64

Motion for New Trial

68

— i v/ —

TABLE OF AUTHORITIES
i

Cases
Argersinger v. Hamlin, A07 U.S. 25, 92 S.Ct. 2006, 32 L.Ed.2d
11
530 (1 972)
Clisby

v.

Pones,

960

F.2d

925

(11th

Cir.

13

1992)

Cuyler v. Sullivan, 446 U.S.x335 , 1 00 S.Ct. 1 700, 64 L.Ed.2d
333 (1 980)
11, 12
Harrington: i v. Richter, 562 U.S. B6, 131 S.Ct. 770, 178
L.Ed . 2d 624 ( 201 1 )....................................................................

1 3

Johnson, 205 F.3d 775 (5th Cir. 2000)

11

Porter v. McCollum, 558 U.S. 30, 130 S.Ct. 447, 175 L.Ed.2d
398 (2009)

9

Porter v . Zook, 803 F.3d 694 (4th Cir. 2015)

14

Perillo v .

Pouell v. Alabama,
(1 932)

287 U.S. 45, 53 S.Ct. 55,

Rompilla v. Beard ,
360 (2005)

545 U.S. 374, 125 S.Ct. 2456, 162 L.Ed.2d

11

7

United States v. Pouell, 161
Wilson

v.

Sellers,

77 L.Ed. 158

584 U.S.

14

F.3 d 738 (D.C. Cir. 1 998)
,

138

S.Ct.

1138,

200

L.Ed.2d

1 3

530 ( 201 8)
Statutes

2 , 12

28 U.S.C. section 2254(d)
Constitutional Provisions

2 , 11, 14

U.S. Const, amend. VI

2 , 14

U.S. Const, amend. XIV

-v-

PETITION FOR A liJRIT OF CERTIORARI
Petitioner Quinn Cruz respectfully petitions for a writ
of certiorari to review the judgment of the United States Court
of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the
Fifth Circuit appears at Appendix A to the petition and is
unpublished. Cruz v. Lumpkin, No. 19-50972, December 1B, 2020.
The opinion of the United States District Court for the
Western District of Texas appears at Appendix B to the petition
and is unpublished. Cruz v. Davis, No. EP-1B-CV-243-DCG
Tex., Aug. 6,

(W .D .

2019).

The opinion of the Eighth Court of Appeals appears at
Appendix C to the petition and is unpublished. Cruz v. State ,
No. 0B-0B-00213-CR (Tex.App.- El Paso 2010, pet. ref'd.).
The opinion of the Eighth Court of Appeals appears at
Appendix D to the petition and is unpublished. Cruz v. State ,
0B-14-0005B-CR (Tex.App.- El Paso 2016, pet. ref'd.).
Rehearing denied on October 19,

2016.

-1 -

JURISDICTION
The judgment of the Fifth Circuit Court of Appeals was
entered on December 18,

2020. The time for filing Petitioner's

petition for a writ of certiorari was extended by this Court in
Order of March 19, 2020, to May 17, 2021. The jurisdiction of
this Court is invoked under 28 U.S.C. Section 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case invokes Amendment VI to the United States Constitution,
which provides :
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to
be confronted with the witnesses against him; to have compulsory
process for obtaining Witnesses in his favor, and to have the
Assistance of Counsel for his defense.
The case also invokes Amendment XIV to the United States
Constitution, which provides:
Section 1. All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person
with its jurisdiction the equal protection of the laws.
Section 5. The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.
28 United States Code Section 2254(d) provides that where a
claim was adjudicated on the merits in state court, federal
habeas relief cannot be granted unless the state-court
adjudication :
-2-

(1) resulted in a decision that mas [a] contrary to, or
[b] involved an unreasonable application of, clearly
established federal lay as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
STATEMENT OF THE CASE
Petitioner Quinn Cruz and his girlfriend, Tonya West , had
moved into the Crest Apartments on October 18, 2005.
26) .

1

(RR5:

25-

West was separated from her husband at the time, but not

yet divorced.

(RR5: 58-59). Approximately one week later, West

left Cruz and moved into another apartment in the same complex.
On the morning of November 18, 2005, Cruz and West had a
conversation in the parking lot about their break-up.
On February 9, 2006, Cruz was indicted for capital
murder in Cause No. 20060D00581.

(CR1:

3;

2007).

On his plea of not guilty, Cruz was tried from September
24-26, 2007. Attorneys Jaime Gandara and Edythe Payan of the El
Paso Public Defender's Office represented Cruz at the guiltinnocence stage of trial. On the 26th, a jury found Cruz guilty
of capital murder for the death of West and her unborn fetus.
(CR4: 1357;

2007). Prior to trial, the State had given notice

that it would not seeking the death penalty. Cruz was
automatically sentenced to life without the possibility of
parole in the Texas Department of Criminal Justice (TDC3).
(R R 7: 162;

2007).

1 Throughout this brief, references to the record will be made
as follows: "CR" for clerk's record and " R R " for reporter's
record, with volume and page number, plus "2007!? for the year
of the guilt-innocence records.

-:s-

On October 29 ,
new trial.

(CR4: 1372;

2007, defense counsel filed a motion for
2007). On December 11,

2011, the motion

uas automatically overruled by operation of law.
On Duly 28, 2010, the Eighth Court of Appeals reversed the
capital murder conviction, reformed the judgment to reflect the
lesser-included offense of murder of West, and remanded the case
to the trial court for a new trial on punishment only in Cruz v .
State, No. 08-08-0021 3-CR (Tex.App.- El Paso 2010, pet. ref'd.).
See App. C .
On March 23, 2011, the Court of Criminal Appeals of Texas
refused discretionary review in Cruz v. State , No. PD-1 687-1 0 .
On remand, attorneys Felix Castanon and Nicole Bombara
of the El Paso County Public Defender's Office were assigned to
represent Cruz at the punishment stage of trial.from October 2831 , 201 3 .

( RR4 : 41 ) .

Prior to trial,
Withdraw" citing a

attorney Castanon had filed a "Motion to

'conflict of interest' as grounds for

withdrawal on October 17, 2013. See App. E. On October 18,

2013,

the trial court denied the motion. As a result, Cruz was
sentenced to life in prison with the maximum fine amount of
$10,000 on October 30,

2013.

(RR6:

55). This is the first

instance where the first federal question for review in this
petition was presented in state-court proceedings.
On November 8 ,

2013, counsel filed a motion for new trial

and on February 6, 2014, the motion was automatically overruled
by operation of law.
-4-

.^

On June B, 2016, the Eighth Court of Appeals affirmed the
judgment of the trial court in Cruz v. State,

No. 0B-1 4-0005B-CR

(Tex.App.- El Paso 2016, pet. ref1d.). See App. D. Rehearing was
denied on October 19, 2016.
On March 1, 2017, the Court of Criminal Appeals of Texas
refused discretionary review in Cruz v. State, No. PD-1098-16
(Tex.Crim.App. 2017).
On February 14,

201B, Cruz filed an application for a

writ of habeas corpus seeking relief from a final felony
conviction under the Texas Code of Criminal Procedure, Article
11 .07. Cruz raised five grounds for habeas relief, as follows:
(1) ineffective assistance of counsel at the gui1t-innocence
stage of trial;

(2) prosecutorial misconduct;

(3) ineffective

assistance of counsel at the punishment stage of trial;
(4) improper jury arguments during closing;

and (5) cumulative

effect of trial court errors denying effective assistance of
counsel.
The application was denied without written order on May
23, 2018, in Ex parte Cruz, No. UR-69, 786-02.

Reconsideration/

rehearing was also denied by the court on June 11,

201 B .

On August 21, 201B, Cruz filed a petition for a writ of
habeas corpus by a person in state custody under 2B U.S.C.
Section 2254 in the United States District Court for the
Uestern District of Texas, El Paso Division, in Cruz v. Davis,

-5-

(

No . EP-l’BrCU-243-DCG.

(ECF No. 1).2

On December 13, 2018, Respondent's attorneys filed the
Respondent's Answer with Brief in Support.)

(ECF No . 18). In

thier brief, they had cited the incorrect methodology for
federal courts in determining state court's rationale for
unexplained habeas decision. This is the first instance where
the second federal question for review in this petition was
pre^nted in collateral proceedings.
On September 10, 2018, the district court filed the
Memorandum Opinion and Order

(ECF No. 24 & 26), which denied

Cruz's Section 2254 petition for habeas corpus, motion for
evidentiary hearing, certificate of appealability (COA), and all
pending actions. See App. B.
In response to these denials,
to Memorandum Opinion and Order

Cruz filed his

'Objections

(ECF No. 32) on October 24,

2019, which was treated by the district court as a motion to
alter or amend judgment under Federal Rule of Civil Procedure
Rule 59(e). Cruz also filed a formal motion for certificate of
appealability (COA)

(ECF No. 33) on November 1,

2019, and a

motion for appointment of counsel.. (ECF No. 37) on November 8,
201 9 .
On November 8, 2019, the district court issued its
Order Dismissing Motion to Alter or Amend Oudgment

(ECF No. 35)

in which it also denied Cruz's request for a certificate of
appealability (COA).
2 References to documents filed in the U.S. -district court are
denoted by "ECF" and document number.
-6-

□n November 20,
appointment of counsel.

2019, the court denied the motion for
(EOF No. 38).

On December 16, 2019, Cruz filed a motion for certificate
of appealability (COA) in the United States Court of Appeals for
the Fifth Circuit in Cruz v. Lumpkin,

No. 19-50972. The Circuit

Oudge denied the motions for a certificate of appealability and
appointment of counsel on December 18, 2020. Reconsideration mas
denied on April 15, 2021.
This petition for a mrit of certiorari folloms accordingly.
REASONS FOR GRANTING THE PETITION
I. TRIAL COUNSEL AT THE PUNISHMENT STAGE OF TRIAL HAD LABORED
UNDER A CONFLICT OF INTEREST THAT RESULTED IN INEFFECTIVE
ASSISTANCE OF COUNSEL, VIOLATING CRUZ'S CONSTITUTIONAL
RIGHT TO THE EFFECTIVE ASSISTANCE OF COUNSEL UNDER THE
SIXTH AMENDMENT TO THE UNITED STATES CONSTITUTION.
A.

Trial counsel's actions at the guilt-innocence stage
of trial mas not harmless and carried over to Cruz's
punishment trial several years later.

Attorneys Oaime Gandara and Edythe Payan had represented
Cruz at the guilt-innocence stage of trial from September 24-26,
2007.

(RR4: 1357; 2007). Cruz had raised in his state and federal

habeas corpus applications that attorneys Gandara and Payan had
failed to investigate and introduce mitigating evidence in his
defense. See Rompilla v. Beard, 545 U.S. 374, 390, 125 S.Ct.
2456, 162 L.Ed.2d 360 (2005)(court found ineffective assistance
in capital case mhere defense attorneys failed to look into the
file mhere they mould have found a range of mitigating leads).
Prior to trial, Cruz had notified his attorneys that the
victim, Tonya West, had pulled a gun on him on a prior occasion
-7-

and threatened tn shoot him. Attorneys Gandara and Payan did not
raise this matter in the trial proceedings.
The State uas represented by Assistant District Attorneys
Jennifer Uandenbosch and Aaron Setliff.

(RR5: 2;

2007).

Javier Reyes worked with the El Paso Police Department's
Crime Scene Unit. (RR5: 52-53; 2007).

On September 24, 2007,

Officer Reyes was under direct-examination when Mr. Gandara
objected to the admittance of State's exhibits 30 through 40,
as fallows:
THE COURT: Approach please.
MR. GANDARA: They would show that inside of an
apartment,
nothing relevant to anything except in the
closet there are guns and that is the alleged
victim's apartment and any guns in her
apartment are not relevant to anycissue in
this case. And it is inflammatory.
(RR5 : 64;

2007) . Also,

THE COURT: Your objection is just to
MR. GANDARA: 34 Through 40. Each and every one of those.
(RR5: 65;

2007) .

Carlos Carrillo was a detective in the El (?aso Police
Department.

(RR5: 190;

2007). On September 24, 2007, Detective

Carrillo was under direct-examination when Ms. Payan had
objected, as follows:
MS .

PAYAN: Your Honor, objecting to anything that is
found in Apartment 809 as to relevance and
also goes into matters that--

THE COURT: Sustained.
(RR5: 205;

2007).

-B-

Ms. Uandenbosch explains the reason for these objections
later to the Court, as follows:
MS. UANDENBOSCH : There is the victim's husband, Charles
West. As a result of conversation that
he had with the victim, he brought his
guns to the apartment complex which are
the exhibits that the defense objected
to .
The victim's apartment, there is a
handgun and a shotgun. And that he
would testify that he brought those over
because of the victim's concern for her
well being.
(RR5: 237; 2DD7).
Cruz had argued that trial counsel's failure to present
mitigating evidence at the guilt-innocence trial is not entitled
to a presumption of reasonableness because it was neither informed
by a reasonable investigation nor supported by any logical
position that such failure would benefit Cruz's defense. See
Porter v. McCollum, 558 U.S. 30, 40, 130 S.Ct. 447, 452-453, 175
L . Ed . 2d 398 (2009) .
The State gave notice that it was not seeking the death
penalty. The punishment for capital murder was life without the
possibility

of parole. Counsel's objection to the evidence was

unreasonable in light of all the available evidence in the)
record. Counsel's omission of the evidence carried over to Cruz's
punishment trial several years after the conclusion of the guiltinnocence trial.
B. Trial counsel's admittance of the omitted evidence
at the punsihment stage of trial.

-9-

Attorneys Felix Castanon and Nicole Bomabara represented
Cruz atnthe punishment stage of trial from October 27-31, 2013.
At the trial hearing, they submitted the evidence that attorneys
Gandara and Payan had objected as Defense Exhibits 4, 5, 6,
7.

and

(RR4 : 173, DX 4-7) .3
The reluctance of attorneys Castanon and Bombara to tell

the jury that their co-workers from the El Paso County Public
Defender's Office, whom represented Cruz at the guilt-innocence
stage of trial, was what brung on the conflict of interest
between Cruz and his attorneys at the punishment stage.
Mr. Castanon and Ms. Bomabara had submitted a proposed charge on
sudden passion, which attorneys Gandara and Payan could have done
at the guilt-innocence trial in September 2007.
To re-iterate, Mr. Castanon had filed a pre-trial motion
to withdraw citing a conflict of interest. That motion was denied
by the trial court. Mr. Castanon and Ms. Bomabara were forced to
represent Cruz at his punishment trial, which ultimately led to
Cruz's sentence to life in prison with the maximum fine amount of
$1 0,000 .
In addition, Ms. Bombara had filed a "Motion for New
Trial" in which she cites:
"The State is agreement [sic] with this Motion for New
Trial as there is new evidence."
(See App. F). This motion was filed on November B,

2013. The

motion was subsequently denied by operation of law on February
6, 2014.
3 Defense exhibits are denoted by "DX" and evidence number.
-10-

While this motion for new trial uias pending, Ms. Bomabara
had filed two "Motion to Withdraw and Substitute Counsel" on
November 21, 2013. The trial court granted the motion and Cruz
was appointed a new appellate attorney, Mr. Ruben Morales.
To - da te , Cruz nor Mr. Morales had been able to locate said
new evidence and what the new evidence is.
C. Supporting Arguments
Petitioner had a right to the effective assistance of
counsel at trial. U.5. Const, amend. VI;

Powell v . Alabama, 287

U.S. 45, 53 S.Ct. 55, 77 L.Ed. 158 (1932). The Sixth Amendment
has been applied to the state through the operation of the Due
Process Clause of the Fourteenth Amendment to the United States
Constitution. Argersinger v. Hamlin, 407 U.S. 25,

92 S.Ct.

2006,

32 L.Ed.2d 530 (1 972 ) .
The legal test for ineffective assistance of counsel
based on conflict of interest is governed by Cuyler v. Sullivan,
446 U.S. 335, 1 00 S.Ct. 1 708, 64 L.Ed.2d 333 (1 980).
Respondent Lorie Davis, in her Answer (ECF No. 18), had
stated that Cruz fails to identify any facts remotely implicating
Cuyler, and that he did not prove competing interests of other
clients,

(pg. 20). In addition, Respondent also cites Perillo v .

Johnson,

205 F.3d 775, 781

(5th Cir. 2000) in her Answer. Id.

Cruz concedes that the Cuyler test involves multiple
representation of clients and so does P_e_ril_l_5__._ However, these
cases do not specifically exclude cases of individual cases of
ineffective assistance of counsel based on conflict of interest.
-11 -

In addition, the U.S. district court expressed the same
reasoning as Respondent in the court's "Memorandum Opinion and
Order" (See flpp. B) that Cruz did not prove that his counsel at
the punishment hearing represented other clients with competing
interests .
The Respondent’s Answer and the district court's analysis
was erroneous because there is no clear rule that states that
the Cuyler test inly applies to multiple-representation cases.
This Court has the perfect opportunity to address
whether the Cuyler test only applies to multip1e-representation
cases .
2B U.S.C. section 2254(d)(1) provides that where a claim
was adjudicated on the merits in state court, federal habeas
relief cannot be granted unless the state-court adjudication:
(1) resulted in a decision that was
or [b] involved an unreasonable
clearly established federal law
the Supreme Court of the United

[a] contrary to,
application of,
as determined by
States.

Petitioner asserts that many pro se filers who have
reached this stage in their appellate process have read many
legal texts from case law to legal books to try and understand
court rulings that are vague and not straightforward. This
Court has the opportunity to address what standard applies
to conlfict of interest claims for individual representation.
II. THE U.S. DISTRICT COURT AND THE CIRCUIT COURT OF APPEALS
ERRED, INTER ALIA, WHEN THE COURTS DID NOT APPLY THE
"LOOK THROUGH" METHODOLOGY ADOPTED BY THIS COURT.

-1 2-

On April 17, 2018, the U.S. Supreme Court adopted the
'look through' methodology for federal courts in determining
state court's rationale for unexplained habeas decision in
Wilson v. Sellers, 584 U.S.

, 138 S.Ct. 1188, 1190, 200 L.Ed.2d

530, 533 (2018) and Held:
A federal habeas court reviewing an unexplained statedecision on the merits should "look through" that
decision to the last related state-court decision that
provides a relevant rationale and presume that the
unexplained decision adopted the same reasoning. The
State may rebut the presumption by showing that the
unexplained decision must likely relied on different
grounds than the reason decision below.
Respondent incorrectly applied the

could have supported

approach in the Answer (ECF No. 18) in Harrington v. Richter,
562 U.S. 86, 87, 131

S.Ct. 770, 178 L.Ed.2d 624 (2011), as

follows :
"To determine if the state court made an unreasonable
application, a federal court "must determine what arguments or
theories supported or... could have supported, the state's
decision; and then it must ask whether it is possible fairminded
jurists could disagree that these arguments or theories are
inconsistent with the holding in a prior decision of this Court."
First,

Cruz had raised this error in his Traverse (ECF

No . 23) but the district court did not address this matter.
Second, Cruz raised this issue again in his motion for certificate
of appealability in the Fifth Circuit, but the court did not
address the matter. Lastly, Cruz raises this matter again in
hopes that this Court will address this issue.
In Clisby v. Jones, 960 F.2d 925 (11th Cir. 1992), an en
b_anc, court created the hard rule that a district court must
"resolve all claims for relief in a petition for a writ of
-1 3-

habeas corpus pursuant to 28 U . S. C . Section 2254 (1 988),
regardless whether habeas relief is granted or denied." See also
Porter v . Zook, 803 F.3d 694 (4th Cir. 2015); United States v .
Powell , 161

F . 3d 738 (D.C. Cir. 1 998 ) .

This Court is in the perfect position to address whether
all U.S. district courts and circuit court of appeals are
obligated to follow the

'look through' methodology.

Petitioner case raises questions of interpretation of the
Right to Effective Assistance of Counsel at Trial under the
Sixth Amendment and the Due Process Clause of the Fourteenth
Amendments to the United States Constitution.
Cruz's 11.07 state application for a writ of habeas
corpus was denied without a written order. The federal courts
did not address nor did they apply the correct methodology in
Cruz ' s case.
The Fourteenth Amendment provides, in due part, that:
" [ N ] o r shall any State deprive any person of life, liberty, or
property, without due process of law...." U.S. Const, amend. XIV .
CONCLUSION

-

For the foregoing reasons, certiorari should be granted in this
case .
Respectfully submitted,

Quinn Palacio s Cruz , Or .
TDCO #1 4761 78
Telford Unit
3899 State Hwy. 98
New Boston, Texas 75570
Petitioner pro se
-1 4-

VERIFICATION
I have read the foregoing 'Petition for a Writ of
Certiorari' and hereby certify that the matters alleged in this
petition are true. I certify under the penalty of perjury that
the foregoing is true and correct.
Executed at New Boston, Texas, on this 14th day of May, 2021.

QTjy/rm

P a 1 a a ios

Cruz,

Or.

-1 5-

